<html>
<title> - U.S. ASSISTANCE TO SERBIA: BENCHMARKS FOR CERTIFICATION</title>
<body><pre>[Senate Hearing 107-36]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 107-36

         U.S. ASSISTANCE TO SERBIA: BENCHMARKS FOR CERTIFICATION

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                   U.S. GOVERNMENT PRINTING OFFICE
72-226                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
CRAIG THOMAS, Wyoming                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin
LINCOLN D. CHAFEE, Rhode Island      PAUL D. WELLSTONE, Minnesota
GEORGE ALLEN, Virginia               BARBARA BOXER, California
SAM BROWNBACK, Kansas                ROBERT G. TORRICELLI, New Jersey
                                     BILL NELSON, Florida
                   Stephen E. Biegun, Staff Director
                Edwin K. Hall, Democratic Staff Director

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                   GORDON H. SMITH, Oregon, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
LINCOLN D. CHAFEE, Rhode Island      PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
                                     PAUL D. WELLSTONE, Minnesota

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Abramowitz, Hon. Morton, I., senior fellow, the Century 
  Foundation, Washington, DC.....................................     6
    Prepared statement...........................................    10
Bang-Jensen, Nina, executive director, Coalition for 
  International Justice, Washington, DC..........................    18
    Prepared statement...........................................    20
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     4
Bugajski, Janusz, director, East European Project, Center for 
  Strategic and International Studies, Washington, DC............    13
    Prepared statement...........................................    15
Voinovich, Hon. George V., U.S. Senator from Ohio................     5

Statements Submitted for the Record:

    Albanian American Civic League, Ossining, NY, statement 
      submitted for the record...................................    26
    Koszorus, Frank, Jr., president, American Hungarian 
      Federation of Metropolitian Washington, DC, statement 
      submitted for the record...................................    27

                                 (iii)

  

 
        U.S. ASSISTANCE TO SERBIA: BENCHMARKS FOR CERTIFICATION

                              ----------                              


                        THURSDAY, MARCH 15, 2001

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Gordon H. 
Smith (chairman of the subcommittee) presiding.
    Present: Senators Smith and Biden.
    Also present: Senator Voinovich.
    Senator Smith. Ladies and gentlemen, we welcome you all to 
this very important hearing on U.S. assistance to Serbia. I am 
very pleased to be joined by my colleague from Ohio, Senator 
Voinovich. He takes a very personal and I think a family 
interest in issues related to the former Yugoslavia.
    I must apologize at the outset that we are told there are 
votes scheduled during the course of the hearing, but I did not 
want to postpone this hearing. This is a timely hearing, an 
important hearing, and as best we can, Senator Voinovich and I 
will make sure we get through this hearing and get our votes in 
as well.
    October 7, 2000, an historic day for the people of the 
former Yugoslavia, was a day that the Serbian people ended a 
dark era of tyranny and violence. Slobodan Milosevic was 
peacefully deposed as one of Europe's last dictators, and 
Vojislav Kostunica emerged as the leader of a democratically 
elected FRY Government, a government that has promised sweeping 
political and economic reforms.
    The United States is committed to supporting these reforms. 
Toward that end, Congress appropriated up to $100 million in 
development assistance to the Federal Republic of Yugoslavia 
[FRY]. However, recent history in the FRY prompted Congress to 
condition much of that assistance on the conduct of the new 
government in Belgrade. Specifically, that assistance will 
continue to flow to the FRY after March 31 only if our 
President certifies that Belgrade is meeting three basic 
conditions. They are the following.
    First, the Government in Belgrade must be cooperating with 
the International Criminal Tribunal for Yugoslavia, and that 
cooperation is defined as including access for investigators, 
provision of documents, and surrender and transfer of indictees 
or assistance in their apprehension.
    Second, Belgrade must be taking steps that are consistent 
with the Dayton Accords that brought peace to Bosnia. Clearly, 
Belgrade must end financial, political, security, and other 
support to Serbian separatists in Bosnia.
    Third, the new Government in Belgrade must be implementing 
policies which reflect a respect for minority rights and the 
rule of law.
    As the March 31 deadline approaches, it is an appropriate 
time to assess the FRY's progress in each of these areas. To 
assist us in this evaluation, we have with us today three very 
distinguished witnesses. Our first witness will be Ambassador 
Morton Abramowitz of the Century Foundation. He has served as 
U.S. Ambassador to many places, Turkey and Thailand, just to 
name a couple. He remains a powerful voice on matters 
concerning the Balkans.
    Our second witness will be Janusz Bugajski, who directs the 
East European Project at the Center for Strategic and 
International Studies. He has written extensively on 
developments in Central Europe, particularly the Balkans.
    The third member of our panel will be Nina Bang-Jensen, 
executive director for the Coalition for International Justice. 
The Coalition provides support to the International Court in 
the form of technical legal assistance, advocacy, and public 
education.
    All of our witnesses are well-qualified to address the 
subject. I appreciate their willingness to share their views 
with us this afternoon.
    In the past 5 months, there has indeed been positive change 
in the FRY. I welcome the commitment of the new government to 
democracy and market reform, as well as establishment of 
diplomatic relations with Bosnia. I have been particularly 
impressed by its calm and restrained response to the violence 
committed by Albanian extremists in the Presevo Valley.
    However, I am concerned by other developments in Belgrade. 
President Kostunica continues to balk on cooperating with the 
court. He recently condemned the War Crimes Tribunal as 
illegitimate and politically motivated. Second, Mr. Kostunica 
has questioned the legality of the Dayton Accords. He has done 
little to reduce political and material support flowing from 
the FRY to Serbian separatists in Bosnia.
    Third, 5 months after the fall of Mr. Milosevic, hundreds 
of ethnic Albanians remain wrongfully imprisoned in Serbian 
jails. They were jailed for resisting the repressions of his 
regime.
    I would like to recognize and honor here today Dr. Flora 
Brovina, an Albanian prisoner who was tried in Serbia and 
convicted on false charges of terrorism. We welcome you, madam.
    Because so many Albanian prisoners were not as fortunate as 
Dr. Brovina, and remain in prison, I recently introduced a 
resolution calling for their immediate release. In short, it 
appears doubtful that today one could certify that Belgrade is 
meeting the conditions Congress placed upon assistance to FRY. 
These are not symbolic benchmarks. They are steps that must be 
taken if the FRY is to successfully complete its transformation 
from an unstable and violent kleptocracy into a democratic 
State that contributes, rather than undercuts, stability in 
southeastern Europe.
    It is imperative that the United States hold the FRY firmly 
to these standards. Democracy will not prevail in the FRY if it 
is unable to acknowledge that accountability for wars and their 
atrocities in the former Yugoslavia lies within the Milosevic 
regime. Democracy will not flourish in the absence of ethnic 
reconciliation, and that reconciliation cannot occur if 
Belgrade refuses to release Albanians who have been wrongfully 
imprisoned.
    The consolidation of stability in the Balkans will be 
undermined if it becomes evident that cooperation with the 
court and commitment to the Dayton Peace Accords are optional. 
Indeed, those in Croatia and Bosnia-Herzegovina who are sending 
indicted war criminals to The Hague and isolating separatists 
in Bosnia and Herzegovina will closely observe the standards 
the United States sets for the FRY in these two areas.
    Finally, I hope that our European partners will be willing 
to stand with us in the effort to ensure that the Government of 
the FRY meets these three conditions. If there is a division 
between the United States and Europe on this matter, there is 
little hope that decisive progress will be made in the FRY. 
Moreover, such division would jeopardize support in the United 
States to work with our European allies and partners in the 
effort to bring enduring peace and stability to the Balkans. We 
now recognize Senator Biden, who is the ranking member of the 
full committee, and we welcome you, sir.
    Senator Biden. Thank you very much, Mr. Chairman. In the 
interest of time, because we are going to have five votes, I am 
told, beginning at 2:30, I will ask unanimous consent that my 
entire statement be placed in the record.
    Senator Smith. Without objection.
    Senator Biden. And I would like to associate myself with 
the remarks you made. I thought you made a very good opening 
statement, Mr. Chairman.
    Let me just focus on two things very quickly. One, if we 
examine the policy implications and the possible outcomes of 
the March 31 deadline, the first seems to me what might be the 
political and economic ramifications of that decision I think 
we have to examine. The second is, will we lose leverage in the 
future with Belgrade if President Bush decides to move ahead 
with certification, if it took an especially liberal 
interpretation of the compliance for him to do so?
    I am very concerned, quite frankly. The Bush administration 
is showing signs of caving on certification. My suspicion is 
only enhanced by the refusal to send up a witness today, but I 
could be wrong about that. I hope I am.
    It seems to me we have to stay the course on this matter, 
because if we certify Serbia prematurely, without genuine 
compliance, I fear we will have cashed in our last and our best 
form of leverage, particularly by signing our unconditional 
support for to aid Yugoslavia from the World Bank and the 
International Monetary Fund. Let us be honest about it; support 
from international financial institutions is of greater value 
to Belgrade than the approximately $60 million in U.S. 
assistance not yet distributed this fiscal year.
    In the past few days, there have been news reports that 
Belgrade is hoping to win certification at the eleventh hour by 
arresting Milosevic. While I would be the first to cheer such a 
move, I caution that we must not lose sight of the ultimate 
goal of the process. I do not want Mr. Milosevic to become this 
century's Al Capone--a ruthless murderer, as you recall, but 
was convicted and incarcerated for tax evasion.
    I have no objection to the Government in Belgrade arresting 
and trying Milosevic for domestic crimes if they are going to 
turn him over after that to The Hague, and I have no objection 
to having The Hague on the Danube. If that is part of the 
problem, I have no objection to The Hague moving to Belgrade to 
conduct those war crimes tribunals. That is what I mean by 
Hague on the Danube. But I have significant objection if we 
fail to try Mr. Milosevic.
    We do have three distinguished witnesses, one of whom I 
know extremely well, and I rely on him for his advice. The 
other two I know of, and have spoken with in the past. I am 
anxious to hear what they have to say, and I yield the floor, 
Mr. Chairman.
    [The prepared statement of Senator Biden follows:]

           PREPARED STATEMENT OF SENATOR JOSEPH R. BIDEN, JR.

    Thank you, Mr. Chairman, and thank you for holding this important 
hearing.
    Our goal here today is fairly straightforward. We want to examine 
whether or not the new regime in Belgrade is meeting or, at the very 
least, attempting to meet the three conditions set forth in Section 594 
of the FY2001 Foreign Operations bill.
    This legislation lays out conditions that must be fulfilled by the 
Government of Yugoslavia in order for U.S. assistance to continue.
    These criteria are well known: progress on minority rights and the 
rule of law; steps to sever aid and other support for institutions in 
the Republika Srpska; and, perhaps the most demanding of the three, 
cooperation with the International Criminal Tribunal for the former 
Yugoslavia in The Hague.
    Additionally, I hope we can examine the policy implications of two 
possible outcomes following the March 31st deadline.
    First, what might be the political and economic ramifications if 
the President decided not to certify?
    Second, would we lose leverage in the future with Belgrade if 
President Bush decided to move ahead with certification, especially if 
it took an especially liberal interpretation of compliance for him to 
do so?
    But before we discuss these questions, I think it is worthwhile 
briefly to re-examine the rationale behind the certification 
legislation.
    In truth, Congress was attempting to strike a fairly delicate 
balance. On the one hand, we wanted to give Kostunica and his allies 
the chance to gain their political sea legs and to consolidate their 
hold on power, which they did by winning the December 2000 
parliamentary elections and by weathering a severe winter energy 
crisis--with the help of emergency U.S. assistance, I might add.
    On the other hand, we did not want to fall prey to the kind of 
uncritical ``Yugophoria''--to borrow a phrase from former Senator 
Dole--that gripped some of our European allies in the heady weeks 
following Milosevic's ouster.
    While we all agree that Yugoslavia has made monumental strides in 
the past year, these accomplishments cannot erase the terrible crimes 
committed by Slobodan Milosevic's brutal regime. As Nuremberg taught 
us, accountability is the quickest way to salve the psychic wounds left 
by war crimes and allow a society to move forward.
    Sooner or later, Serbia must come to terms with its role in the 
tragic events that took place in Bosnia and Kosovo during the past 
decade. The new regime in Belgrade needs to understand that the United 
States will stand firm on this issue, even if it must stand alone.
    Furthermore, Congress wanted to avoid creating a regional double 
standard whereby we hold Croatia, whose government is making courageous 
efforts to comply with The Hague, to a more stringent set of criteria 
then we do Serbia.
    We did not want to create a new policy based on the flawed logic of 
``Serb exceptionalism.''
    To be perfectly honest, I do not see how at this moment President 
Bush could possibly certify Serbia. With a little more than two weeks 
remaining before the March 31st deadline, the only progress Belgrade 
can point to is this week's voluntary surrender of Bosnian Serb 
indictee Blagoje Simiy.
    He is one of at least fifteen individuals indicted for alleged war 
crimes currently believed to be hiding out in Serbia. This was a 
positive step, no doubt, but a relatively small one.
    I am equally concerned that the Bush Administration is showing 
signs of caving in on certification--a suspicion that is only enhanced, 
I must say, by the conspicuous absence of any administration witnesses 
at this hearing.
    We need to stay the course on this matter, because, if we certify 
Serbia prematurely and without genuine compliance, I fear we will have 
cashed in our last and best form of leverage, particularly by signaling 
our unconditional support for aid to Yugoslavia from the World Bank and 
the International Monetary Fund.
    Let's be honest--support of the international financial 
institutions is of much greater value to Belgrade than the 
approximately sixty million dollars in U.S. assistance not yet 
disbursed this fiscal year.
    In the past few days, there have been news reports that Belgrade is 
hoping to win certification at the eleventh hour by arresting 
Milosevic. While I would be the first to cheer such a move, I would 
caution that we must not lose sight of our ultimate goal in this 
process.
    I do not want Mr. Milosevic to become this century's Al Capone--a 
ruthless murderer who, you'll recall, was convicted and incarcerated on 
the far lesser crime of tax evasion.
    I would have no objection to the Yugoslav Government's trying Mr. 
Milosevic for domestic crimes, but only if Belgrade clearly stipulated 
that his extradition to The Hague to face war crimes charges would 
follow.
    I look forward to hearing the viewpoints of our distinguished 
witnesses. I thank each of you for taking time out of your busy 
schedule to testify before this committee.
    Nina Bang-Jensen is the highly regarded Executive Director of the 
Coalition for International Justice.
    Janusz Bugajski a prominent expert on the Balkans, joins us from 
the Center for Strategic and International Studies, where he heads the 
Center's East European Project.
    And, of course, we are fortunate once again to have with us 
Ambassador Morton Abramowitz, one of America's most distinguished 
diplomats and a person with an unsurpassed knowledge of the region. 
From my conversations with Mort, I believe that he has a keen sense of 
the policy direction toward which this country ought to be moving.
    Mr. Chairman, I will stop here. I would like to thank you again for 
calling this hearing.

    Senator Smith. Thank you, and I share your concern about 
the State Department's response in not sending a witness or the 
memo that they have sent so that we could examine it.
    Senator Voinovich, do you have an opening statement?

 STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR FROM OHIO

    Senator Voinovich. Just a brief response. First of all, I 
want to thank you very, very much for giving me the opportunity 
to sit in on this meeting of your Subcommittee on European 
Affairs. I think you know that during the last 2 years I have 
been very active on issues affecting Southeast Europe. I have 
traveled to the region five times, and I have met with leaders 
of every country in the Balkans, as well as representatives 
here in the United States.
    Most recently, over the New Year's holiday, I traveled to 
the Balkans with Senator Specter to visit with the new leaders 
in Serbia and the Federal Republic of Yugoslavia. My goal has 
been to work toward democratization in the FRY, to emphasize 
the importance of human rights, the rule of law, and a market 
economy. I have also encouraged the United States and our 
allies to remain committed to the implementation of the 
stability pact and to stay involved in the region.
    Earlier this morning, I spoke with President Kostunica and 
reiterated the importance of arresting Milosevic before March 
31 and cooperating with The Hague. I encouraged him to grant a 
Presidential pardon to the 143-member Djakovica group, ethnic 
Albanians held in Serb prisons on charges of terrorism, and I 
told him it was important that he take steps before the March 
31 deadline to demonstrate his commitment to making real 
progress on the three conditions for certification.
    President Kostunica said he was doing his best to work 
through the three conditions outlined in the FY2001 Foreign 
Operations Appropriations bill. After talking to Ambassador 
Montgomery, I know that President Kostunica has made progress, 
particularly on dealing with the Dayton situation and taking 
steps to release the Albanians that are in jail.
    President Kostunica also indicated that his country's high 
unemployment rate, failing economy and so on, make it pretty 
difficult for him. He is not having an easy time of it. The 
violence in the Presevo Valley has put a lot of political 
pressure on him, and he has had to exercise a great deal of 
restraint there. I understand from talking to the Ambassador 
this morning that President Kostunica and his government are 
cooperating with Covic and so forth in southern Serbia.
    And last but not least, the FRY government has present and 
serious challenges with President Djukanovic talking about 
independence. I think President Kostunica gets the message, and 
I will be interested in hearing from the witnesses here today 
on their observations of what they think is happening there.
    Thank you.
    Senator Smith. Let us hear first from Ambassador 
Abramowitz, then Mr. Bugajski, and Ms. Bang-Jensen. We thank 
you, and we welcome you, sir.

  STATEMENT OF HON. MORTON I. ABRAMOWITZ, SENIOR FELLOW, THE 
               CENTURY FOUNDATION, WASHINGTON, DC

    Ambassador Abramowitz. Mr. Chairman, Senator Biden, Senator 
Voinovich, I gather we are going to be constrained in time, so 
I will dispense with much of my testimony. Much of what you 
gentlemen have already said is very similar to my own thinking, 
so let me highlight some of the things I want to say.
    First of all, on this certification I think it is important 
to make no mistake, this is an enormously important decision. 
It will affect all the countries of the former Yugoslavia, and 
the ultimate success of our efforts, and it comes at an 
extraordinary juncture in the Balkans.
    First, the change in Serbia, remarkable, has been welcomed 
by the world. Obviously, we all feel that a Serbia increasingly 
democratic and free of the virulent nationalist aspirations of 
the last decade is indispensable for Balkan stability, but 
democracy in Serbia is far from assured, and the United States 
must stand with those forces in Belgrade battling for real, 
systemic reform, and facing up to Serbia's role over the past 
decade.
    It is not encouraging that so few of Serbia's leaders, 
including President Kostunica, have expressed even the 
slightest remorse for Serbia's contribution to ethnic cleansing 
and all the death and destruction of the Milosevic era.
    Second, the situation in Kosovo is deteriorating because of 
the delay in establishing a Kosovo-run Government. The West has 
helped undermine moderate elements and encouraged militants 
there by the unconditional embrace of the Nationalist Democrats 
in Belgrade, raising for Kosovars the possibility of the return 
of Serbian rule to Kosovo.
    Extremist Albanian activities in southern Serbia are, I 
believe, in part directly related to the fact that the area in 
Kosovo north of Mitrovica has been allowed by the West to 
effectively separate from Kosovo, which has supported Belgrade. 
Such militant Albanian activities, including those in 
Macedonia, I might add, are destroying international support 
for the Kosovars.
    Third, and most important for the United States, NATO faces 
a serious dilemma in helping stop the violence in south Serbia 
and increasingly in Macedonia. The alliance once again confined 
its viability, threatened by a failure to staunch an emerging 
Balkan conflict with significant spill-over capacity. NATO's 
recent pledge not to station peacekeeping forces in Macedonia 
could become an invitation to Albanian militants.
    Finally, the Dayton Accords on Bosnia are presently under 
strain from extremist Bosnian Croats, and radicals and 
moderates there will watch how the West responds to Serbia's 
handling of Milosevic and its relationship with the Republic of 
Srpska, and the three conditions, I think the case is open and 
shut. Unless major steps are taken in the next 15 days, 
Belgrade is nowhere near on the way to meeting any of the 
conditions for certification.
    Let me go briefly, on cooperation with the international 
criminal tribunal, Belgrade has yet to detain and transfer a 
single indictee to The Hague, and President Kostunica's hostile 
public statements have left no doubt about his attitude toward 
cooperation with The Hague in general, and the effort to have 
Milosevic face charges in The Hague in particular.
    Early this week, one indictee did go to The Hague under 
American importunings, a Bosnian Serb of dual nationality, and 
Mr. Kostunica's Government was eager to emphasize his surrender 
was voluntary and entailed no change in policy. I think we 
should take them at their word.
    Ending support for separate Republic of Srpska's 
institutions. Belgrade's policy of supporting the extremist 
party in Srpska has not altered since the opposition took over. 
President Kostunica instead effectively campaigned for them 
during Bosnian elections last fall, and he has publicly praised 
Radovan Karadzic as a national hero. He has left in place the 
shadow infrastructure of financial military support that 
sustains the Republic of Srpska army and counterintelligence 
services and destabilizes Bosnia.
    Let me add a personal aside on a matter of great interest 
to me. I am simply amazed that the U.S. Government sees fit to 
publicly critique some electoral rules of a potential 
Montenegro referendum designed to permit the people of 
Montenegro to vote on whether or not to separate from Serbia, 
but is completely timorous on getting Serbia to refrain from 
its separatist activities in Bosnia. The message seems to be, 
beware of being a small, friendly country that acted as a key 
NATO wartime ally and cooperates with The Hague tribunal.
    Now, respecting minority rights and the rule of law, 
President Kostunica came to office on the shoulders of 
thousands of Serbs demanding that the rule of law govern their 
elections and their lives. Progress has been made in 
eliminating many of the oppressive aspects of the Milosevic 
regime. Yet many of Milosevic's cronies still hold positions of 
great influence. Police and military officers who led 
Milosevic's assaults are still in office, or have gained 
greater power.
    Minorities are still under discriminatory law, and on the 
subject you mentioned, Mr. Chairman, Belgrade announced plans, 
as you know, to release the Kosovar Albanians in jail for 
almost 2 years on unsubstantiated charges of terrorism, but in 
reality the new amnesty law would leave three-fourths of them 
behind bars.
    Now, let me discuss the case that will be made that there 
are overriding reasons to certify Serbia's progress, however 
tenuous, toward satisfying the congressional conditions, and I 
agree with both of you, Senators, that I think the State 
Department is determined, or the administration is determined 
to make a certification whatever the circumstances.
    In any event, the reasons for a wider look at this are an 
important matter. First, let me make clear what I think the 
administration is doing on this issue. Like many previous 
administrations, they are following policies that do not fit 
the facts on the ground, and that usually gets the United 
States into trouble.
    The previous administration was correctly criticized for 
basing its policy toward Russia on certifications that were 
more fantasy than fact. Now this administration seems to be 
directing the State Department to follow that same road. In 
this case, because of your interest, and your attention to the 
facts, they feel the need to find or produce some signs of 
progress to provide some ostensible basis for certifying 
compliance, thus, according to the New York Times, our envoy in 
Belgrade has been working out with the Belgrade Government the 
steps it should take or announce to show some progress on the 
three conditions, and some cover for certification.
    For example, as you pointed out, Senator Biden, the 
administration has reportedly asked the Yugoslav Government to 
arrest Milosevic, something they had been planning to do, I 
believe, anyway, and that is good, but for charges other than 
war crimes, and without any commitment to send him to The 
Hague, and as far as Belgrade's support for the Bosnian Serb 
army, effectively paid for with millions of outside aid 
dollars, moneys fungible here, the State Department apparently 
insists not that Belgrade stop, but that its activities become 
transparent. I am not sure what that does to support the Dayton 
Accords. Maybe Yugoslav Army officers will now wear their FRY 
uniforms all the time instead of part-time.
    So let me now deal with the serious considerations for 
keeping the flow of support to Yugoslav going, and not the 
pattern of compliance that we are asking of an unwilling 
government. Now, some have suggested that these three 
conditions are evidence of anti-Serb bias, pure and simple. I 
reject that completely. It is not anti-Serb to say that the new 
government in Belgrade is only at the beginning of the road, a 
long road. It is not anti-Serb to say, quite simply, that 
extreme nationalism has no place in 21st century Europe, and it 
is profoundly in the interests of the people of Serbia. Serbs 
and all Serbian minorities have heard too many false promises 
for too long to give them a straightforward map back to full 
membership in the international community.
    Second is your question, Mr. Biden. The United States has 
no real leverage. It is certainly true that our $100 million, 
$60 million now, or $40 million now in direct aid is only a 
small part, but a large chunk of the aid which is actually 
already dispersed. It is only a small part of the assistance 
Serbia is receiving, or needs to receive, and it is regrettably 
true that Serbia maybe benefactor, the European Union, has 
opted out of conditionality altogether.
    Until now, most of Europe seems to go along with anything 
Mr. Kostunica does. That has been unfortunate, because in the 
long run there is no question that Europe will have to play the 
leading role in the reintegration of Belgrade and the entire 
region into the world economy, and they can best serve that 
goal by making clear to the government in Belgrade what 
international norms are, and that the EU takes them seriously.
    Now, it is true that leverage we have will diminish with 
time, and we will likely lose it all once Serbia is certified, 
and that is despite various elements in the State Department. 
We will lose it. Where our voice can make a crucial difference 
is in discussing Belgrade's membership in and assistance from 
the national financial organizations and in rescheduling the 
large external debt.
    Economic revival will not get anywhere without debt 
restructuring and significant assistance from the World Bank, 
and the administration should be focusing in getting the 
political and economic conditions right for those efforts and 
you, gentlemen, I hope will make sure that it happens.
    Third and most important is the argument that existing on 
these conditions will prompt a back-lash in Belgrade, that they 
will weaken the new government, fuel extreme nationalism, and 
discredit the goals we seek to advance, and that is a serious 
concern. While it is unlikely, I certainly cannot rule it out. 
I think, however, that certifying now has likely produced far 
greater political damage. It lends more support to nationalist 
forces, indicates that Serbia does not have to change much to 
get the West to open its pockets.
    Moreover, all the evidence suggests that, since Congress 
put these conditions into law last year, they have, in fact, 
promoted debate, and have promoted increasing openness in 
Belgrade, and the democratization of Croatia, one of the real 
positive lessons from the experience of the international 
community in the Balkans, reinforces the conclusion that this 
kind of leverage does promote serious change. In that country, 
the U.S.-led full performance based conditionality on 
cooperation with the tribunal, including the transfer to The 
Hague of all Croatian and Bosnian-Croat indictees and the 
cutoff of Zagreb's military and economic support for Bosnia 
were pivotal to breaking down the old structures and declaring 
the way for reform. I might add, uncharitably, that the U.S. 
Government initially did not support any such effort.
    Now, let me point out the negative consequences if the 
administration certifies progress that does not, in fact, 
exist. The costs will be severe, particularly for the position 
of reformers in Belgrade, as well as for the position of the 
reform options in the region. It is now recognized that NATO's 
failure to apprehend the most wanted war criminals in Bosnia 
after Dayton was signed has probably been the single biggest 
blow to the peace process in that country. Instead of sending a 
message about responsibility, we gave encouragement to 
extremists on all sides, and helped continue the mafias and the 
construction to flourish, and letting up on pressure to send 
Milosevic and his cronies to The Hague will produce a similar 
effect, not just on Serbia, but throughout the region.
    In Croatia, President Mesic has resolutely supported these 
three conditions, and his has been a brave and principled voice 
in trying to overcome the poisoned legacy of the past. We 
cannot simply say that is acceptable for Belgrade to do less. 
We will be sending also the wrong signals to the Kosovars who 
urgently need to back away from their own extremists, and we 
will send a wrong signal to Macedonia, which is now struggling 
in a very difficult situation.
    The nationalists in Belgrade will continue to help fuel 
extremism across the region, and that is harmful, and this is 
not an effort to deny aid to Serbia. No one questions the need 
and the help they require in establishing a democracy and 
rebuilding the society and the role that the United States can 
play, but I hope you will stand firm, and you will hold the 
administration's feet to the fire as best you can, in saying 
that the extremism and the hate that we helped defeat on the 
battlefield not be allowed to triumph through our neglect. 
There is always reasons to postpone hard-making decisions, but 
this is a time to make our standards clear, and I urge you to 
stay involved and to keep asking the hard questions.
    Thank you.
    Senator Smith. That we will do.
    [The prepared statement of Ambassador Abramowitz follows:]

            PREPARED STATEMENT OF HON. MORTON I. ABRAMOWITZ

    Mr. Chairman, Members of the Committee:
    Congress has mandated, in the 2001 Foreign Operations Assistance 
Act, that the President certify by March 31 whether or not the 
government of President Kostunica in Belgrade has met three conditions 
for further American aid and other forms of support. Thank you for 
inviting me here to discuss the choice that the Bush Administration 
must shortly make. I will be brief and as pointed as possible.
    Make no mistake. This is an enormously important decision. It will 
affect all the countries of the former Yugoslavia and the success of 
American and allied efforts there. Congress has a great responsibility 
on this critical issue and I know will look at it with the candor and 
thoroughness it deserves.
    This decision comes at an extraordinary juncture in the Balkans:

  <bullet> The remarkable change in Serbia since last fall has been 
        welcomed by the world. A Serbia increasingly democratic and 
        free of the virulent nationalist aspirations of the last decade 
        is indispensable for Balkan stability. But democracy in 
        Belgrade is far from assured--and the US must stand with those 
        forces in Belgrade battling for real systemic reform and facing 
        up to Serbia's role over the past decade. It is not encouraging 
        that so few of the country's leaders, including its President, 
        have expressed even the slightest remorse for Serbia's 
        contribution to ethnic cleansing and all the death and 
        destruction of the Milosevic era.

  <bullet> The situation in Kosovo is deteriorating because of the 
        delay in establishing a Kosovo-run government. The west has 
        further helped undermine moderate elements and encouraged 
        militants there by their unconditional embrace of the 
        nationalist democrats in Belgrade, raising for Kosovars the 
        possibility of the return of Serbian rule to Kosovo. Extremist 
        Albanian activities in Southern Serbia are, I believe, in part 
        directly related to the fact that the area in Kosovo north of 
        Mitrovica has been allowed by the west to effectively separate 
        from Kosovo with the support of Belgrade. Such militant 
        activities including those in Macedonia, I might add, are 
        destroying international support for the Kosovars.

  <bullet> NATO faces a serious dilemma in helping stop the violence in 
        south Serbia and increasingly in Macedonia. The alliance, once 
        again, can find its viability threatened by a failure to 
        staunch an emerging Balkan conflict with significant spillover 
        capacity. NATO's recent pledge not to station peacekeeping 
        forces in Macedonia could become an invitation to Albanian 
        militants.

  <bullet> The Dayton accords in Bosnia are presently under strain from 
        extremist Bosnian Croats. Radicals and moderates alike there 
        will watch too how the West responds to Serbia's handling of 
        Milosevic and its relations with Republika Srpska.

    On the three conditions Congress has placed on assistance to 
Serbia, I think the case is open and shut unless major steps are taken 
in the next 15 days Belgrade is nowhere near or on the way to meeting 
any of the conditions for certification. When the condition is 
progress, incessant talk and promises do not fit the bill. Briefly:

          1. Cooperation with the International Criminal Tribunal for 
        the Former Yugoslavia: Belgrade has yet to detain and transfer 
        a single indictee to the Hague Tribunal. It has plagued the 
        work of the Tribunal's Belgrade office with bureaucratic 
        obstacles. And President Kostunica's hostile public statements 
        have left no doubt about his attitude toward cooperation with 
        the Tribunal in general, and the effort to have Milosevic face 
        charges in the Hague in particular. Earlier this week, one 
        indictee did go to the Hague--a Bosnian Serb of dual 
        nationality--and Mr. Kostinica's government was eager to 
        emphasize that his surrender was ``voluntary'' and entailed no 
        change in policy. I think we should take them at their word.

          2. Ending support for separate Republika Srpska institutions: 
        Belgrade's policy of supporting the extremist party in 
        Republika Srpska has not altered since the opposition took 
        power. President Kostunica instead effectively campaigned for 
        them during Bosnian elections last fall and has publicly 
        praised Radovan Karadzic as a ``national hero.'' He has left in 
        place the shadowy infrastructure of financial and military 
        support that sustains the Republika Srpska Army and 
        counterintelligence services--and destabilizes Bosnia. Let me 
        add a personal aside: I am simply amazed that our government 
        sees fit to publicly critique some electoral rules of a 
        potential Montengro referendum designed to permit the people of 
        Montengro to vote on whether or not to separate from Serbia, 
        but is so timorous on getting Serbia to refrain from its 
        separatist activities in Bosnia. The message seems to be beware 
        being a small friendly country that acted as a key NATO wartime 
        ally and cooperates with the Hague Tribunal.

          3. Respecting minority rights and the rule of law: President 
        Kostunica came to office on the shoulders of thousands of Serbs 
        demanding that the rule of law govern their elections and their 
        lives. And progress has been made in eliminating oppressive 
        aspects of the Milosevic regime. Yet many of Milosevic's 
        cronies still hold positions of great influence. Police and 
        military officers who led Milosevic's most murderous assaults 
        are still in office--or have gained greater power. Minorities 
        are still under discriminatory laws. Belgrade announced plans 
        to release the Kosovar Albanians held in its jails for almost 
        two years on unsubstantiated charges of terrorism. But in 
        reality, the new amnesty law will leave three-fourths of them 
        behind bars. And the work of building strong, legitimate 
        judicial and economic institutions has hardly begun.

    Let me now discuss the case that will be made that there are over-
riding policy reasons to certify Serbia's progress--however tenuous--
toward satisfying the Congressional conditions. That is an important 
matter, and I would like to devote the rest of my time to it.
    First it needs to be made clear what the administration is doing on 
this issue. Like many previous administrations they are following 
policies that do not fit the facts on the ground. That usually gets the 
U.S. into trouble. The previous administration was correctly criticized 
for basing its policy toward Russia on certifications that were more 
fantasy than fact. Now this administration seems to be directing the 
State Department to follow that same road. In this case because of 
Congressional attention to the facts, they feel the need to find or 
produce some signs of progress to provide some ostensible basis for 
certifying compliance.
    Thus, according to the New York Times, our envoy in Belgrade has 
been working out with the Belgrade government the steps it should take 
or announce to show progress on the three conditions and some cover for 
certification. For example, the Administration has reportedly asked the 
FRY government to arrest Milosevic, something they have been planning 
to do anyway--but for charges other than war crimes and without any 
commitment to send him to the Hague. As far as Belgrade's support for 
the Bosnian Serb army, effectively paid for with millions of outside 
aid dollars, the State Department apparently insists not that Belgrade 
stop but that its activities be ``transparent.'' I am not sure what 
that does to support the Dayton accords. Maybe FRY officers will now 
wear their FRY army uniforms all the time instead of part time. Let me 
deal with the serious considerations for keeping the flow of support to 
Yugoslavia going and not the patina of compliance we have asked for 
from an unwilling government.
    Some have suggested that the three conditions are evidence of anti-
Serb bias, pure and simple. I reject that completely. It is not anti-
Serb to say that the new government in Belgrade is only at the 
beginning of a long road. It is not anti-Serb to say quite simply that 
extreme nationalism has no place in 21st-century Europe. And it is 
profoundly in the interest of the people of Serbia--Serbs and all 
minorities--who have heard too many false promises for too long, to 
offer a straightforward roadmap back to full membership in the 
international community.
    Second is the assertion that the United States has no real 
leverage. It is certainly true that our hundred million dollars in 
direct aid is only a small part--but a large chunk of the aid already 
actually disbursed--of the assistance Serbia is receiving or needs to 
receive. And it is regrettably true that Serbia's main benefactor, the 
European Union, has opted out of conditionality all together. Until now 
most of Europe seems prepared to go along with anything Mr. Kostunica 
does. That has been unfortunate, because in the long run, there is no 
question that Europe will have to play the leading role in the 
reintegration of Belgrade and the entire region into the world economy. 
Today, they could best serve that goal by making it clear to Belgrade 
what international norms are--and that they take them seriously.
    It is also true that what leverage we do have will diminish with 
time. We will likely lose it altogether once Serbia's progress is 
certified. Where our voice can make a crucial difference is in 
discussing Belgrade's membership in and assistance from the 
international financial organizations--and in rescheduling Belgrade's 
large external debt. That debt now equals the country's GDP, crippling 
any effort to restore infrastructure and social services in Serbia. 
Economic revival will get nowhere without debt restructuring and 
significant assistance from the World Bank. The Administration should 
be focusing on getting the political and economic conditions right for 
those efforts--and Congress should be there to make sure that it 
happens.
    Third and most important is the argument that insisting on these 
conditions will prompt a backlash in Belgrade; that they will weaken 
the new government, fuel extreme nationalism, and discredit the goals 
we seek to advance. This is a serious concern. While not likely I 
cannot rule it out. I think, however, that certifying now is likely to 
produce far greater political damage. It lends more support to 
nationalist forces and indicates that Serbia does not have to change 
much to get the West to open its pockets. Moreover, all the evidence 
suggests that since Congress put these conditions into law last year, 
they have in fact promoted debate and increasing openness in Belgrade. 
And the democratization of Croatia--one of the real positive lessons 
from the experience of the international community in the Balkans-- 
reinforces the conclusion that this kind of leverage will help promote 
positive change. There, the U.S. led full performance-based 
conditionality on cooperation with the Hague tribunal, including the 
transfer to the tribunal of all Coatians and Bosnian Croat indictees 
and the cut-off of Zagreb's military, economic and political support to 
Herceg Bosnia, were pivotal to breaking down the old structures and 
clearing the way for reform. I might add uncharitably that the USG 
initially did not support such an effort.
    Lastly, let me point out that there will be negative consequences 
if the Administration certifies progress that does not in fact exist. 
The costs will be severe not only for the position of reformers in 
Belgrade, but also for the prestige of the reform option in the region 
and ultimately for regional stability.
    It is now broadly recognized that NATO's failure to apprehend the 
most-wanted war criminals in Bosnia quickly after Dayton has been 
probably the biggest single blow to the peace process there. Instead of 
sending a message about responsibility, we instead gave encouragement 
to extremists on all sides and helped the mafias and corruption to 
continue to flourish.
    Letting up on pressure to send Milosevic and his cronies to the 
Hague will produce a similar effect not just in Serbia but throughout 
the region. In Croatia the outspoken President, Stipe Mesic, has 
resolutely supported just these conditions--cooperation with the 
Tribunal, breaking ties with Croat extremists in Bosnia, and increasing 
respect for minority rights in Croatia itself. His has been a brave and 
principled voice in trying to overcome the poisoned legacy of the past. 
We cannot simply say that it is acceptable for Belgrade to do much 
less. We will be sending the wrong signal to the Kosovars, who urgently 
need to back away from their own extremists. We will send the wrong 
signal also to Macedonia, as it struggles to succeed as a multi-ethnic 
state. Nationalism in Belgrade will continue to help fuel extremism 
across the region--and that will be harmful to the region's interests 
and to our own.
    This is not an effort to deny aid to Serbia. No one questions that 
Serbia badly needs outside help in establishing democracy and 
rebuilding its society--and no one questions that the United States 
ought to play an important part in assisting that country. But I hope 
Congress will stand firm in saying that the extremism and hate that we 
helped defeat on the battlefield must not now be allowed to triumph 
through our neglect, or our unwillingness to confront facts we do not 
like.
    There will always be reasons to postpone making hard judgments. But 
there will not come a better time than this to make our standards 
clear, and express our determination to see a democratic Serbia emerge 
as the anchor of a stable region. To seize that opportunity, this 
discussion must be a first step, not a last step. I urge Congress to 
stay involved; to keep asking the hard questions about whether U.S. 
policy is truly furthering the cause of peace and justice in the 
Balkans; to keep insisting on the three conditions being met before aid 
is provided, and to send the strong message that we will do our best 
not to allow the region to slide back into the habits of violence and 
extremism.
    Thank you.

    Senator Smith. Mr. Bugajski.

   STATEMENT OF MR. JANUSZ BUGAJSKI, DIRECTOR, EAST EUROPEAN 
   PROJECT, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                         WASHINGTON, DC

    Mr. Bugajski. Thank you very much, Mr. Chairman, Senator 
Biden, Senator Voinovich. To save on time I will simply sum up 
my paper, which is not that long to begin with, but I will try 
and make it even briefer.
    In sum, while the Government in Belgrade has made some 
progress domestically in the human rights front in promoting 
pluralism and so forth, in the three crucial areas specified by 
the U.S. Senate, they are clearly falling short of the targets. 
Let me just summarize the three.
    First of all, in terms of cooperating with the 
International War Crimes Tribunal, despite persistent urging by 
the IWCT to begin proceedings for extraditing Slobodan 
Milosevic and other high-ranking Serbian war criminals to The 
Hague, the Government in Belgrade has failed to meet 
international requirements.
    Indeed, Serbia remains the only country in the world with 
an indicted war criminal serving as its President. Instead of 
reaching out to the international community and its neighbors 
by promoting justice and disassociating itself actively from 
the Milosevic regime, Belgrade has instead reached out 
primarily for foreign funds. This has left a network of 
civilian and military war criminals at liberty and in business 
inside Serbia.
    Second, abiding by the Dayton Accords to end support for 
Serbian separatists. Kostunica has cast doubts on his support 
for the integrity of Bosnia-Herzegovina by claiming that the 
Dayton agreement was never ratified by the Yugoslav Parliament. 
Moreover, he maintains close ties with the leadership of the 
Republica Srpska in Bosnia, and little has been done to reduce 
political, military, intelligence and materiels support for 
separatist groupings.
    Serbia continues to provide the Bosnian Serb military with 
officers and resources, and it controls the entity's 
intelligence structures. The recent agreement on special 
relations between Yugoslavia and the Bosnian-Serb Republic must 
be carefully monitored, as it appears reminiscent of a similar 
concord between Tudjman's Croatia and the Croat Muslim 
Federation designed to break up the central state.
    And third, in terms of implementing policies in respect to 
human rights and the rule of law, although Serbia has made some 
progress in lifting the most repressive features of the 
Milosevic regime, the law remains obstructed. Substantial 
segments of the socialist apparatus remain intact, reinforcing 
the supposition that this was not a revolution but a secret 
deal enabling the socialists, the former war criminals, to 
preserve their positions and privilege even after Milosevic's 
ouster.
    The country's economy is subject to organized crime and 
corruption, while the lack of transparent government 
institutions is evident in many situations, including the 
unreformed judicial system.
    A number of Serbian security officers continue to operate, 
the ones responsible for some of the worst atrocities during 
the wars in Bosnia, Croatia and Kosovo. Belgrade has 
insufficiently addressed the position of ethnic minorities. 
Serbia's numerous minorities were constantly under threat 
during the past decade, and their demands and aspirations 
continue to be neglected. Belgrade's opposition to restoring an 
autonomous status for Vojvodina has escalated tensions with the 
new democratically elected authorities in that province, and 
moreover, Belgrade's tolerance of indicted war criminals and 
Serbian paramilitary leaders responsible for war crimes 
encourages lawlessness and criminality inside Serbia.
    Very briefly, there are four minimal steps that that Serbia 
has to meet in order to meet the conditions specified by the 
Senate. First, it must promptly begin the process of 
extraditing Milosevic and other indicted war criminals to The 
Hague, and establish full informational and logistical 
cooperation with The Hague. Belgrade must also publicly 
acknowledge the responsibility of the Milosevic Government in 
perpetrating genocide in the former Yugoslav Republics.
    Second, Serbia must cutoff all state funding to the Bosnian 
Serb military forces, police units, separatist political 
parties, and other institutions promoting the disintegration of 
Bosnia. Belgrade should focus on developing strong bilateral 
relations with Sarajevo, and not primarily with one of the 
Bosnian entities.
    Third, Serbia needs to remove from office a number of 
military officers and security chiefs instrumental in 
repression over the past decade. Additionally, I believe it 
must offer the Presevo Albanian leaders a position in the 
central government to diffuse the ongoing conflict, and then 
pursue administrative decentralization throughout Serbia that 
would restore autonomy to Vojvodina.
    Fourth, in terms of the future of Yugoslavia, Serbia must 
not interfere in or seek to disrupt the upcoming Montenegran 
parliamentary elections, and the subsequent referendum of 
independence. Belgrade must respect the will and decision of 
the Montenegran people, and aim to build cooperative bilateral 
relations between the two emerging states. I think here 
Washington can also play a very constructive role in this 
process.
    Last, very briefly, let me just say why it is important to 
keep these conditions. First, democratic development, second, 
regional security, third, international law. First, Serbia's 
lack of full compliance with U.S. conditions undermines 
democratic developments inside the country and encourage 
nationalist forces emboldened by a lack of accountability and a 
permissive international climate. Belgrade must be actively 
encouraged to pursue more extensive structural reforms to root 
out criminality and foster bilateral cooperation with all of 
its neighbors.
    Second, regional security. Croatia, Bosnia, and Kosovo are 
dismayed that after 10 years of aggression Serbia is not being 
held accountable for offenses against its neighbors, and has 
failed to acknowledge its responsibility. This, in turn, 
encourages revanchist and extremist sentiments in all these 
three territories, and boosts populist and nationalist 
formations waiting in the political wings. Belgrade's lack of 
acknowledgement for the mass murder of Kosovar Albanians 
prevents any hopes of inter-ethnic reconciliation and 
encourages calls for revenge attacks by Albanian militants.
    And last, international law. The allies must curtail the 
widespread impression that double standards prevail on the war 
crimes issue, one for Serbia, and one for the other former 
Yugoslav republics. Responses to war crimes must not become an 
issue of political expediency, but a measure of justice, 
morality, and Western values.
    Contradictory policies on war crimes send precisely the 
wrong message to Serbia. Belgrade has concluded, quite frankly, 
that their threat of domestic instability, whether real or 
imaginary, can extract concessions in foreign aid with a brazen 
disregard for international norms. In practice, I believe 
flexible standards on war crimes will corrode the legitimacy of 
the international court, as well as the consolidation of 
democratic government and rule of law throughout the region.
    Thank you.
    [The prepared statement of Mr. Bugajski follows:]

                 PREPARED STATEMENT OF JANUSZ BUGAJSKI

    In sum, while the two governments in Belgrade (a Yugoslav 
administration led by Vojistav Kostunica and a Serbian administration 
led by Zoran Djindjic) have made significant progress domestically in 
removing the most blatant human rights abuses, in three crucial areas 
specified by the U.S. Senate they have fallen short of meeting targets 
that are important for consolidating an indigenous democracy and 
promoting regional security.
   has the serbian government met u.s. senate conditions for funding?
    Cooperating with International War Crimes Tribunal: Despite 
persistent urging by the IWCT (International War Crimes Tribunal) to 
begin proceedings for extraditing Slobodan Milosevic and other indicted 
high-ranking Serbian war criminals to The Hague, the governments in 
Belgrade have failed to meet international norms.
    President Kostunica, much like his predecessor, continues to claim 
that the international court is an anti-Serb body despite the fact that 
IWCT recently sentenced Croatian generals for their role in war crimes 
against Muslim civilians in Bosnia. Kostunica also claims that 
Yugoslavia has no extradition agreements with foreign countries, a 
proposition contradicted by the government in Montenegro which points 
out that The Hague is not a foreign state but an international legal 
instrument. Indeed, the glaring difference between Serbia's obstruction 
and Montenegro's cooperation with the IWCT was underscored by the UN's 
chief war crimes prosecutor Carla del Ponte after her recent visits to 
both capitals.
    Serbia remains the only country in the world with an indicted war 
criminal serving as its President, Milan Milutinovic, a close 
accomplice of Milosevic. Instead of reaching out to the international 
community and to its neighbors by promoting justice and disassociating 
itself actively from the Milosevic regime, Belgrade has instead reached 
out primarily for foreign funds. This has left a network of civilian 
and military war criminals at liberty and in business in Serbia. The 
impending trial of Milosevic on corruption charges inside Serbia does 
not constitute cooperation with the IWCT. On the contrary, it may 
hinder the process of international justice and worsen relations 
between Belgrade and its neighbors. Moreover, Belgrade's assertion that 
NATO leaders should be tried concurrently on alleged war crimes charges 
does not foster international cooperation.
    Abiding by Dayton accords to end support for Serbian separatists in 
Bosnia? Kostunica has cast doubts on his support for the integrity of 
Bosnia by claiming that the Dayton agreement was never ratified by the 
Yugoslav parliament. Moreover, he maintains close ties with the 
leadership of the Serb Republic in Bosnia and little has been done to 
reduce political, military, intelligence and material support to 
separatist groupings. Serbia continues to provide the Bosnian Serb 
military with officers and resources and controls the entity's 
intelligence structures.
    The recent agreement on ``special relations'' signed between 
Yugoslavia and Bosnias Serb Republic must be carefully monitored as it 
appears reminiscent of a similar concord between Tudjman's Croatia and 
the Croat-Muslim Federation designed to break up the central state. 
Belgrade has also refused to cooperate in extraditing Bosnian Serb war 
criminals known to be residing in Serbia. For example, General Ratko 
Mladic conveniently disappeared from his home in Belgrade recently when 
the IWCT requested that as a sign of good will non-Yugoslav citizens 
indicted for war crimes be dispatched to The Hague. Former Bosnian Serb 
leader Radovan Karadzic has also reportedly traveled to Serbia 
unhindered in recent months.
    Additionally, there is a palpable fear that in the event of 
Montenegro declaring its independence, Belgrade will seek a new federal 
``partner'' to maintain a Yugoslav state. In such an eventuality, 
Bosnia's Serb Republic could become a primary candidate. Such a move 
would further undermine regional stability and encourage Croatian 
separatists in western Hercegovina who, contrary to the position of the 
Croatian government, are pushing for the breakup of the Bosnian 
Federation.
    Implementing policies in respect of human rights and the rule of 
law? Although Serbia has made visible progress in lifting the most 
repressive features of the Milosevic regime, the institutionalization 
of the rule of law remains obstructed. Substantial segments of the 
Socialist kleptocracy remain intact, reinforcing the supposition that 
DOS (Democratic Opposition of Serbia) made a ``secret deal'' with the 
entrenched establishment enabling it to preserve its positions and 
privileges even after Milosevic's ouster. The country's economy is 
subject to organized crime and corruption while the lack of democratic 
and transparent government institutions is evident in the unreformed 
judicial system and in recent appointments to Serbia's security 
services. These include several officials who served under Milosevic 
throughout the Balkan wars. Numerous military and police commanders who 
engaged in brutal attacks on the Kosovar population remain in office.
    Belgrade has insufficiently addressed the position of ethnic 
minorities. Serbia's numerous and sizeable ethnic minorities were 
constantly under threat during the past decade and their demands and 
aspirations continue to be neglected. The application of laws 
established under the Milosevic dictatorship have prolonged tensions 
with several minority populations. The partial amnesty law passed in 
February left several hundred Albanians in prison on terrorism charges 
despite the lack of credible evidence. Belgrade's opposition to 
restoring an autonomous status for Vojvodina has escalated tensions 
with the new democratically elected authorities in that province. 
Moreover, Belgrade's evident tolerance of indicted war criminals and 
Serbian paramilitary leaders responsible for war crimes in Croatia, 
Bosnia, and Kosova encourages lawlessness and criminality inside Serbia 
and maintains a persistent fear of repression against minority groups.
     what does serbia need to do to meet congressional conditions?
    In order to meet the conditions established by the U.S. Senate, 
Belgrade must initiate three minimal steps.

  <bullet> First, Serbia must promptly begin the process of extraditing 
        Slobodan Milosevic and other senior indicted war criminals to 
        the Hague Tribunal and establish full informational and 
        logistical cooperation with IWCT officials in this matter. 
        Belgrade must also publicly acknowledge the responsibility of 
        the Milosevic government in perpetrating genocide in the former 
        Yugoslav republics.

  <bullet> Second, Serbia must cut off all state funding to Bosnian 
        Serb military forces, police units, separatist political 
        parties, and other institutions promoting the disintegration of 
        Bosnia-Hercegovina. Belgrade should focus on developing strong 
        bilateral relations with Sarajevo and not primarily with one of 
        the Bosnian entities--a strategy that encourages separatism and 
        irredentism.

  <bullet> Third, Serbia needs to remove from office a number of 
        military officers and security chiefs instrumental in 
        repression over the past decade. Additionally, it must offer 
        Presevo Albanian leaders a position in the central government 
        to defuse the ongoing conflict and pursue administrative 
        decentralization throughout Serbia that would restore autonomy 
        to Vojvodina and local self-government to the country's 
        Hungarian, Albanian, Muslim, and other sizeable ethnic and 
        territorial minorities.

  <bullet> Fourth, in terms of the future of Yugoslavia, Serbia must 
        not interfere in or seek to disrupt the upcoming Montenegrin 
        parliamentary elections and the subsequent referendum on 
        independence. Belgrade must respect the will and decision of 
        the Montenegrin people and aim to build cooperative bilateral 
        relations between the two emerging states. The United States 
        can play a constructive role in this process.
      why is it important for the allies to uphold conditionality?
    There are three principal reasons why the Allies need to strictly 
maintain conditions in return for releasing aid to Serbia: democratic 
development, regional security, and international law.
    Democratic Development: The foundations of any democratic state 
need to be based on constitutional principles in line with 
international standards. If either domestic laws or their 
implementation fail this test, then legislation needs to be changed and 
strictly applied by an incoming democratic administration. Delaying 
democratization and international cooperation because of an evident 
concern for legalism is merely a convenient cover for inaction and 
obstruction. Serbia's lack of full compliance with U.S. Senate 
conditions will undermine democratic developments inside the country 
and encourage authoritarian and nationalist forces emboldened by a tack 
of accountability and a permissive international climate. Kostunica and 
Djindjic need to be actively encouraged to pursue more extensive 
structural reforms, to root out criminality, to launch a process of 
``denazification,'' and to foster bilateral cooperation with all of 
Serbia's neighbors. Lax international standards will paradoxically do 
more harm than good in propelling Serbia toward democratic rule.
    Regional Security: Croatia, Bosnia, and Kosova are dismayed that 
after ten years of aggression and genocide, Serbia is not being held 
accountable for offensives against its neighbors, and indeed has failed 
to acknowledge its responsibility. This in turn encourages revanchist 
and extremist sentiments in all three territories and boosts populist 
and nationalist formations waiting in the political wings. The most 
glaring example of this tendency has been evident in Croatia where the 
former governing party, the HDZ, has latched on to the war crimes issue 
to try and discredit the democratic government for being too 
accommodating with The Hague tribunal.
    Belgrade's lack of acknowledgement for the mass murder and mass 
expulsion of Kosovar Albanians in 1999 prevents any hopes of inter-
ethnic reconciliation and encourages calls for revenge attacks by 
Albanian militants. Instead of seeking rapprochement, the Kostunica 
government continues to blame NATO for the devastation in 1999 and 
shirks away from recognizing Serbia's primary responsibility for 
provoking the war. Indeed, the violence in the Presevo Valley is being 
fueled both by Albanian radicalism and by Serbia's inability to 
generate confidence among the Albanian population. Belgrade's political 
offers are not perceived as the genuine moves of a democratic 
government but the result of pressures exerted by NATO.
    International Law: The Allies must curtail the widespread 
impression that double standards prevail on the war crimes issue: one 
for Serbia and the other for all other former Yugoslav republics. For 
example, in the case of Croatia, a strict standard has been set since 
the demise of the Tudjman regime, but in the case of Serbia a lax and 
flexible standard evidently appiies. The international community has 
paid lip service to the arrest of leading Serbian war criminal in an 
apparent effort to keep Kostunica in power. Western leaders fear that 
pursuing Milosevic and company too vigorously will undermine Kostunica 
and democracy in Serbia. As a result, they have tacitly condoned the 
deal that the DOS coalition struck with the Milosevic apparatus in 
October 2000 and allowed Yugoslavia to gain entry to several 
international organizations without having to deliver anything 
substantial in return. Indeed, valuable bargaining chips have been 
discarded that could have contributed to apprehending the principal 
instigators and practitioners of genocide. Responses to war crimes must 
not become an issue of political expediency but a measure of justice, 
morality, and ``Western values.'' In this context, by failing to 
cooperate with the IWCT Belgrade is violating the international 
convention on genocide.
    Contradictory policies on the war crimes issue send precisely the 
wrong message to Serbia. Belgrade has concluded that the threat of 
domestic instability (whether real or imaginary) can extract 
concessions and foreign aid and this in turn encourages nationalist 
arrogance and a disregard for international norms. In practice, 
flexible standards on war crimes will corrode both the legitimacy of 
the international court and the consolidation of democratic governance 
and the rule of law throughout the region.

    Senator Smith. Thank you. Unfortunately, the voting buzzer 
has gone off. I do not know how long your statement is. We want 
to hear it.
    Ms. Bang-Jensen. I can make it very short.
    Senator Smith. Why don't we proceed with you, and we will 
stay until the last moment, and we apologize for this. We 
rendered our objections to the leadership that they would call 
a vote at such a time, but----

    STATEMENT OF MS. NINA BANG-JENSEN, EXECUTIVE DIRECTOR, 
      COALITION FOR INTERNATIONAL JUSTICE, WASHINGTON, DC

    Ms. Bang-Jensen. I understand. Thank you very much for 
inviting us to testify, and most importantly, to appear before 
the three of you who have done so much to promote the rule of 
law and peace in the Balkans. I am afraid we are going to have 
to call on you again to help the State Department avoid its 
instinct, which is so often an instinct toward equivocation and 
appeasement in the face of hardliners.
    With 16 days left before March 31, the Serbian Yugoslav 
Governments really have come nowhere close to complying with 
Congress' modest conditions. On the specific benchmark of 
cooperation with the International War Crimes Tribunal in The 
Hague, even rhetorical progress is lacking. Significantly, none 
of the leadership in Belgrade is even claiming that they have 
met the standards for certification. For its part, the State 
Department, by publicly and privately stating over the past few 
months its low expectations of what Belgrade can do by the 31st 
has created an almost self-fulfilling prophesy of 
noncompliance, which we have seen before.
    As a result, the new government in Belgrade seems to have 
expended near zero political capital in pursuing the reasonable 
targets for progress toward the rule of law and democracy 
identified by Congress. There is, however, very good news 
coming from Serbia itself. Recent polls in Serbia indicate the 
citizens are well ahead of their leadership. Over 66 percent 
have expressed a willingness to hand over indictments at The 
Hague. And 60 percent support the transfer of Milosevic, 
particularly if there are economic consequences for not doing 
so. Given those poll numbers, a lot can happen in 16 days if 
leaders in Belgrade and in Washington muster the necessary 
political will. Again I am afraid we are going to have to count 
on the Senate to help muster that political will.
    Much is at stake. You have heard from Ambassador Abramowitz 
and Janusz Bugajski about how hardliners are watching what 
happens here. Those hardliners can be in Belgrade, or Mostar, 
or Foca, or in the Presevo Valley, or now in Macedonia. What we 
do here has significance far beyond Serbia.
    As you have heard also, according to the New York Times the 
State Department is effectively rewriting the standard. The 
language of the law is very clear. It requires that the 
President certify that the Federal Republic of Yugoslavia is 
cooperating with the Tribunal, and that includes access for 
investigators, the provision of documents, and the surrender 
and transfer of indictees or assistance in their apprehension.
    You have already heard about the surrender on Monday. You 
know very well that the Yugoslav Government has gone to a great 
extent to say that the surrender was a personal act, that they 
had nothing to do with it. The head of Kostunica's party said 
it could not be interpreted as the beginning of FRY citizens 
indicted by the tribunal being handed over to The Hague. 
Regrettably, we agree. While a positive development, this is 
not cooperation by the government.
    A Presidential certification of Serbian and Yugoslav 
compliance under this section of the Foreign Operations 
Assistance Act despite Belgrade's failure to make any serious 
efforts at cooperation with the tribunal, to even acknowledge a 
willingness to turn over indictees--and that is plural--as the 
plain language of the law requires, would have grave 
consequences, as you have heard from Ambassador Abramowitz and 
Mr. Bugajski, to reform and stability throughout the region.
    Federal Interior Minister Zoran Zivkovic acknowledged 
yesterday that about 15 indictees are currently in the FRY. 
Five months have passed since Slobodan Milosevic was 
overthrown, and 2 months since the installment of a new 
government. Belgrade has yet to even detain any indictees, let 
alone transfer anyone.
    The recent opening of a tribunal office in Belgrade is, of 
course, welcome, but it has been plagued with bureaucratic 
obstacles and really does not represent significant progress. 
The office was open during the Milosevic regime. We talked to 
the tribunal as recently as yesterday. They said the effective 
level of cooperation with the tribunal office in Belgrade is 
the same as it was pre-NATO intervention in 1998.
    The lack of progress on the tribunal cooperation is likely 
due to President Kostunica's sincere nationalist convictions 
that the tribunal is anti-Serb and unjust because it has not 
investigated the 1999 NATO intervention sufficiently, in his 
mind. The intervention Kostunica has called ``senseless, 
unnecessary, irresponsible, and largely criminal.'' He has 
explicitly linked the tribunal's refusal to investigate alleged 
NATO war crimes to his refusal to transfer Slobodan Milosevic 
to The Hague.
    That core belief of Kostunica's that Belgrade should not 
cooperate with an anti-Serb tribunal has been cloaked in 
numerous other more reasonable-sounding excuses designed to 
ease pressure from the West. However, these excuses, like the 
contention that the tribunal is anti-Serb, do not stand up to 
scrutiny.
    Certainly, there have been lots of reformers within the 
coalition itself, the governing coalition, who initially were 
quite bold about the need for cooperation with the Tribunal. 
They are beginning to couch their statements. That is a 
worrisome development.
    You have heard before the claim that the constitution 
forbids transfer to The Hague. It is simply not true. The 
Justice Minister has said that is not the case. Some claim, and 
the State Department has even picked up on this, that there 
needs to be a law in cooperation with the tribunal. That's 
simply not so. The State Department is even claiming that the 
same kind of law was needed and passed before Croatia turned 
over indictees. Not so again.
    In response to Senator Biden's question about the 
Europeans, it is worth reminding that really the push on 
Croatia using international financial institution 
conditionality was led by the United States. There was no 
support, initially, from Europeans. Congress can again force 
the hand of the administration to garner support elsewhere. The 
Europeans eventually came along. The same is entirely possible 
here.
    I can also say, too, the Europeans have not all been that 
bad on this. As recently as February, the European Union 
mission said that they were going to condition long-term 
assistance. Certainly there is room to go, though.
    Senator Biden. I love your optimism.
    Ms. Bang-Jensen. Since a lot of this has been addressed 
already, and you have not much time, I will just turn in 
closing to the most difficult issues, which are the arguments 
that Serbia should not be required to send Milosevic to The 
Hague, but should be allowed to try him themselves on other 
charges, or host a trial on Serbia run by the tribunal.
    The prosecutor has said that this absolutely will not 
happen. It cannot happen for really practical and logistical 
problems, as well as fairness. If you do this in Belgrade, do 
you do this in Sarajevo, do you do this in Zagreb? Every time 
you have part of a hearing you have to bring all the judges, 
all the documents, all the prosecutors, you have to bring the 
person who is accused, all the witnesses. Witnesses are simply 
not going to feel safe in Belgrade. Witnesses from Kosovo, 
witnesses from Croatia, from Bosnia, Belgrade is not, 
regrettably, yet a safe and secure place.
    The court system there, while there has certainly been 
progress in the removals of some of the judges, is not 
independent yet. We need to help them with judicial reform, but 
it is not going to happen quickly.
    The consequences of a spurious certification are immense. 
If we accept a lesser standard for certification, we are really 
sending a troubling message to all the leaders in the Balkans 
who have met their obligations, to those reformers in Belgrade 
brave enough to understand this obligation and speak about it, 
and most importantly to the hundreds of thousands of people who 
lost their homes, lost family members, lost their livelihoods 
in this carnage, the worst carnage since World War II on 
European soil.
    The first Bush administration stood up for these victims 
before by vigorously supporting the establishment of the 
tribunal, and now is not the time to abandon them.
    Thank you very much.
    [The prepared statement of Ms. Bang-Jensen follows:]

                 PREPARED STATEMENT OF NINA BANG-JENSEN

    With sixteen days left before March 31st , the Serbian and Yugoslav 
governments have come nowhere close to complying with Congress' modest 
conditions for eligibility for substantial U.S. bilateral and 
multilateral economic assistance. On the specific benchmark of 
cooperation with the international war crimes tribunal in The Hague, 
even rhetorical progress is lacking. Significantly, none of the 
leadership in Belgrade is claiming that they have met the standards for 
certification.
    For its part, the State Department, by publicly and privately 
stating over the past few months its low expectations of what Belgrade 
``can'' do by the 31st has created an almost self-fulfilling prophecy 
of non-compliance. As a result, the new government in Belgrade seems to 
have expended near zero political capital in pursuing the reasonable 
targets for progress toward the rule of law and democracy identified by 
Congress.
    There is, however, good news. Recent polls in Serbia indicate that 
its citizens are well ahead of their leadership. Over 66% have 
expressed a willingness to hand over indicted persons to The Hague. 
Given those poll numbers, a lot can happen in sixteen days if leaders 
in Belgrade and Washington muster the necessary political will.
    Much is at stake. Extremists and hard-liners--whether they be in 
Belgrade, Mostar, Foca or the Presevo Valley or Macedonia--are watching 
and hoping to see signs that if they wait long enough and are 
intransigent enough, they can outmaneuver State Department officials 
and Congressional standards. At critical moments concerning U.S. policy 
in the Balkans over the past decade, Congress has reined in the State 
Departments first instincts toward equivocation, prodding it 
successfully to apply standards consistently and firmly. A firm prod is 
necessary here.
    According to Saturday's New York Times, the State Department 
appears to be in the process of effectively rewriting the standards of 
Section 594 of the 2001 Foreign Operations Assistance Act. The 
leadership in Belgrade has apparently been told by State Department 
officials, in a memo entitled ``Specific actions that would contribute 
to March 31 certification,'' that at least one indictee--explicitly not 
Slobodan Milosevic--needs to be transferred to The Hague by March 31, 
2001 and that Milosevic should be arrested and held in custody in 
Belgrade.
    The language of the law is clear. It requires that the President 
certify, ``that the Federal Republic of Yugoslavia is . . . cooperating 
with the International Criminal Tribunal for Yugoslavia including 
access for investigators, the provision of documents, and the surrender 
and transfer of indictees or assistance in their apprehension.''
    As you know, on Monday, a Bosnian Serb indictee named Blagoje Simic 
flew to The Hague and surrendered to the Tribunal. Dr. Simic had served 
as the mayor of Bosanski Samac in Bosnia when the town was overrun by 
Serb forces in 1992 and ``ethnically cleansed'' of non-Serbs. While 
charged with serious crimes, he should not be considered a high level 
suspect. Simic is reported to have been living in Belgrade for the past 
four years and to be a FRY citizen.
    During his court appearance, Simic's lawyer emphasized that his 
surrender was entirely voluntary and at his own initiative. The 
spokesperson for President Kostunica's party, Milorad Jovanovic, was at 
pains to say that the surrender was a ``personal act and cannot be 
interpreted as the beginning of FRY citizens indicted by the Tribunal 
being handed over to The Hague.'' Regrettably, we agree. While a 
positive development, this is not ``cooperation'' by the government.
    A presidential certification of Serbian and Yugoslav compliance 
under Section 594 of the 2001 Foreign Operations Assistance Act at this 
point, despite Belgrade's failure to make any serious efforts at 
cooperation with the tribunal, to even acknowledge a willingness to 
turn over indictees (plural) as the plain language of the law requires, 
would have grave consequences for reform and stability in Serbia and 
throughout the region.
    There are at least six, and as many as 15 publicly indicted war 
criminals in Serbia. Federal Interior Minister Zoran Zivkovic 
acknowledged yesterday that ``about 15'' indictees are currently in the 
FRY. Five months after Slobodan Milosevic was overthrown, and two 
months after the installment of a new government in Serbia, Belgrade 
has yet to detain any indictees, let alone transfer any to The Hague. 
The recent opening of a tribunal office in Belgrade is welcome, but it 
has been plagued with bureaucratic obstacles and does not represent 
significant progress.
    Indeed, a high-level tribunal source told us last week that the 
level of cooperation from Serbia is the same now as when the office was 
open under Milosevic--a time when investigations were limited to crimes 
against Serbs and could generally proceed only when investigators were 
accompanied by Serbian officials. This morning, an official in the 
Office of the Prosecutor indicated again that the level of cooperation 
with the Tribunal is akin to that of the Milosevic regime in 1998.
    The lack of concrete progress on tribunal cooperation is likely due 
to Yugoslav President Vojislav Kostunica's sincere nationalist 
convictions that the tribunal is anti-Serb and unjust because it has 
not investigated the 1999 NATO intervention, an action Kostunica has 
called ``senseless, unnecessary, irresponsible and largely cnminal.'' 
Kostunica has explicitly linked the tribunal's refusal to investigate 
alleged NATO war crimes to his refusal to transfer Slobodan Milosevic 
to The Hague.\1\
---------------------------------------------------------------------------
    \1\ ``Mrs. Carla Del Ponte says that there was not enough time to 
investigate the consequences of the NATO bombing of this country . . . 
which [was] seen in 1999 on televisions all around the world. Just 
because of that, the case of Slobodan Milosevic will be treated, and 
must be treated, in this country.'' B-92, 2/13/01.
---------------------------------------------------------------------------
    This core belief of Kostunica's--that Belgrade should not cooperate 
with an ``anti-Serb'' tribunal--has been cloaked in numerous other, 
more reasonable sounding excuses designed to ease pressure from the 
West. Indeed many of these excuses seem to have found resonance within 
the State Department, leading to public statements from State 
Department officials urging a lenient interpretation of the March 31 
criteria. However, these excuses, like the contention that the tribunal 
is anti-Serb, do not stand up to scrutiny.

  <bullet> There is a reasonable concern among many in Washington that 
        applying too much pressure on Belgrade to fully comply with its 
        tribunal obligations could spark a nationalist backlash and 
        undermine reformers--but the evidence is to the contrary. An 
        opinion poll conducted in Serbia last month showed that 66 
        percent of respondents favored the transfer of indictees to The 
        Hague, with 60.3 percent specifically supporting the transfer 
        of Milosevic to The Hague. Over half (51 percent) of those 
        polled thought their government would transfer Serbian 
        indictees to the tribunal.\2\ The Serbian and Yugoslav justice 
        ministers and the Yugoslav Deputy Prime Minister have in the 
        past spoken in favor of full compliance with the tribunal. In 
        short, there is a majority constituency in Serbia that supports 
        full compliance with the tribunal, but compliance will only 
        materialize if the March 31 deadline is publicly wielded as 
        leverage to pressure hard-liners in the leadership.
---------------------------------------------------------------------------
    \2\ Poll conducted February 12-19, 2001 by the polling firm 
``Argument'' with a sample of 910 in 26 Serbian municipalities. Blic, 
February 28 and March 1, 2001.

  <bullet> President Kostunica, Serbian Prime Minister Zoran Djindjic, 
        and others have claimed that the Serbian constitution forbids 
        delivery of Milosevic and other Yugoslav nationals to The 
        Hague. This assertion has been given credence by some western 
        policymakers, but this assertion is false. Serbian 
        constitutional experts, among them Yugoslav Justice Minister 
        Momcilo Grubac, have pointed out that the constitution forbids 
        extradition of Serbian citizens to other states, but not their 
---------------------------------------------------------------------------
        transfer to an international tribunal.

  <bullet> The claims of some FRY officials that they need six months 
        to enact a law before cooperation with the Tribunal begins is a 
        delaying tactic. Some State Department officials have lent 
        support to this notion and have even suggested, erroneously, 
        that the new government in Croatia waited to pass a new law on 
        cooperation with the Tribunal before turning over indictees. 
        Over a dozen indictees have ended up in The Hague with the 
        assistance of the current Croatian government and its non-
        democratic predecessor.

  <bullet> Another excuse raised in Belgrade and sometimes echoed here 
        and in Europe, is that the new governments face daunting 
        tasks--economic and political reform, the unrest in Southern 
        Serbia, relations with Montenegro and the future of Kosovo--and 
        that compliance with the tribunal, therefore, cannot be a 
        priority. However, hard-liners in the new Serbian and Yugoslav 
        leadership must be made to realize that fulfilling their 
        commitments to the UN Tribunal is not inconsistent with 
        addressing what they regard as more important priorities. In 
        fact ridding Serbia of war criminals well connected with 
        organized crime organizations will aid political and economic 
        reform, and strengthen the rule of law. The new leadership in 
        Serbia and Yugoslavia currently enjoys widespread popularity. 
        If it can not deal with the war crimes issue now, then it will 
        be all the more difficult down the road when the public becomes 
        impatient with the pace of economic recovery, as has been the 
        pattern in all Eastern European countries in transition.

  <bullet> Many have argued that Serbia should not be required to send 
        Milosevic to The Hague, but should be allowed to try him itself 
        on other charges, or host a trial in Serbia run by the 
        international tribunal. The Chief Prosecutor at the tribunal, 
        Carla Del Ponte, has stated unequivocally that Milosevic must 
        first face trial in The Hague for war crimes before facing 
        other charges in Belgrade. The Tribunal's position is well-
        founded in law and common sense. Security Council resolutions 
        established and then reinforced the tribunal's primacy of 
        jurisdiction over domestic prosecutions for war crimes in the 
        former Yugoslavia because the war-ravaged domestic judicial 
        systems were not yet ready or likely to try their own war 
        crimes suspects. While domestic war crimes prosecutions have 
        begun in Croatia and Bosnia and will, over time, occur in 
        Serbia, the Tribunal has been entrusted by all member states of 
        the United Nations with the responsibility of pursuing the 
        major figures from all sides.

      Furthermore, conditions for a safe and fair trial in Belgrade are 
        nowhere near adequate. Protection for witnesses, prosecutors 
        and judges would not be guaranteed, especially given the level 
        of nationalist vitriol directed at the tribunal by President 
        Kostunica and others. Kosovo Albanian, Croatian, Bosnian 
        Muslim, and even Serb prosecution witnesses would doubtless 
        fear for their safety, especially since violent mafia 
        organizations thought to have links to the accused continue to 
        flourish in Serbia. Even a domestic trial of Milosevic on 
        corruption charges held now would be dangerous and difficult, 
        more so now than later because the long process of judicial 
        reform has only just begun.

  <bullet> The same rules that apply to Zagreb and to Sarajevo should 
        apply to Belgrade. Most prosecutions for war crimes in Croatia 
        and Bosnia are being handled through their domestic systems. 
        Where the Tribunal has exerted primacy, however, those 
        governments have transferred indictees. In earlier years when 
        Croatia did not do so, the international community--led by the 
        U.S.--exerted strong conditionality on economic assistance.

    If Belgrade does not fulfil the Congressional criteria for funding 
by March 31 and the Administration chooses to certify it anyway based 
on a weak standard of ``progress'' based principally in wishful 
thinking rather than facts, there will be serious negative 
ramifications for stability in Serbia and the Balkans, and for U.S. 
policy options there.

  <bullet> A spurious certification would undermine the real reformers 
        in the ruling coalition--the same individuals who also have 
        sought more aggressive reforms in other areas. By coddling 
        Kostunica and other hard-liners at the expense of more 
        pragmatic and less nationalist members of the ruling coalition, 
        the mistake of U.S. policy toward Russia in the early 1990s is 
        repeated. By putting support for individual leaders above 
        support for policies, we are in danger of undermining true 
        reformers who would otherwise rise to the top.

  <bullet> The current Croatian government has faced strong western 
        pressure and taken genuine political risks to comply with the 
        Hague tribunal. Creating a separate standard for Serbia will 
        fuel nationalist anger within Croatia against the reformist 
        government in Zagreb and teach that obstructing tribunal 
        compliance might have been a reasonable alternative to the 
        reformist approach.

  <bullet> An unearned presidential certification of Serbia's 
        compliance with the criteria crafted by Congress would 
        undermine efforts in Serbia at establishing the rule of law. 
        Serbia has an unambiguous legal obligation to fully comply with 
        the tribunal. If it feels it can skirt the law with a wink and 
        a nod from the U.S., then the message will just be reinforced 
        that it is acceptable for nationalist policy desires to take 
        precedence over laws--a concept that Belgrade must overcome if 
        it is to progress and become a stable democracy.

  <bullet> Finally, an unearned presidential certification of 
        Belgrade's compliance with the tribunal would undermine the 
        crucial NATO missions in Bosnia and Kosovo, prolonging the need 
        for U.S. troops there. Not only has the new leadership in 
        Belgrade failed to turn over any of the publicly indicted 
        Bosnian Serb war criminals in Serbia, but in January Yugoslav 
        President Vojislav Kostunica even went so far as to raise the 
        prospect of granting them political asylum in a bid to protect 
        them from prosecution.\3\ Among those Bosnian Serb indictees 
        still in Serbia is wartime army commander Ratko Mladic, 
        indicted for genocide for among other things, the Srebrenica 
        massacre. NATO sources have also reported that the indicted 
        wartime Bosnian Serb leader Radovan Karadzic also spends time 
        in Serbia. Until these men are arrested and transferred to The 
        Hague, they will lend hope and power to ultranationalist forces 
        in Bosnia, destabilizing the country and delaying the day when 
        U.S. troops can leave.
---------------------------------------------------------------------------
    \3\ ``If we assume that in Yugoslavia there are people who are 
indicted and they are citizens of some other country, they could seek 
refuge in this country. This country could give them asylum.'' 
Christian Science Monitor, 1/19/01.

    Likewise, Belgrade's failure to transfer to The Hague the five 
leaders publicly indicted for war crimes in Kosovo--among them Slobodan 
Milosevic--only feeds acceptance among ethnic Albanians for the current 
wave of extremist acts in Kosovo, Southern Serbia, and Macedonia. 
Rewarding nationalist policies in Belgrade not only sidelines Serbian 
reformers, but also moderate forces in the Albanian community.
    In adopting Section 594 as law, Congress has provided a service to 
the true reformers in the DOS coalition and to the citizens of the 
former Yugoslavia by explicitly setting forth the minimum standards for 
eligibility for U.S. bilateral and multilateral economic assistance.\4\ 
This law has impressively defined and guided the international debate 
about aid to the region. Without it, there is little doubt that the 
debate about progress by the new government, within and without 
Belgrade, would be even less rigorous than it now appears to be. 
Prosecutor Carla Del Ponte has called upon European governments to 
adopt similar laws, and has vowed to go to the Security Council in 
April seeking sanctions if progress is not made.
---------------------------------------------------------------------------
    \4\ The law exempts humanitarian and democratization assistance.
---------------------------------------------------------------------------
    It would be a great mistake now for Congress to allow the 
Administration to define the law so loosely to deprive it of any 
meaning in the mistaken notion that now is the time for unconditional 
carrots instead of incentives to be earned. That tack has been tried in 
U.S.-Balkans policy before and it does not work. Holding firmly and 
consistently to standards does.
    Again, the language of the law is clear. It requires that the 
President certify, ``that the Federal Republic of Yugoslavia is . . . 
cooperating with the International Criminal Tribunal for Yugoslavia 
including access for investigators, the provision of documents, and the 
surrender and transfer of indictees or assistance in their 
apprehension.'' If Congress accepts a lesser standard for 
certification, it is sending a troubling message to the new 
Administration, to leaders in the Balkans who have met their 
obligations to the Tribunal, to reformers within Belgrade who 
understand this fundamental obligation and, most importantly, to the 
hundreds of thousands of people in the region who lost relatives, homes 
and livelihoods in the worst carnage on European soil since World War 
II.
    The first Bush Administration stood up for these victims before by 
vigorously supporting the establishment of the Tribunal. Now is not the 
time to abandon them by interpreting this straight-forward standard in 
anything less than a rigorous, common-sense way.
    Cooperation cannot be certified now because it does not exist.

    Senator Smith. Thank you very much. Again, we apologize for 
this intrusion on an important hearing. I do want to say the 
timing of this was so important we thought we should at least 
do as much as we can, because these messages need to be sent to 
Belgrade and perhaps to the State Department as well.
    Senator Biden.
    Senator Biden. I would just like to make one point. I 
apologize for it but we are going to have these five votes, and 
one of the five votes is an amendment that I have on the floor. 
I think you are absolutely right on all three of your 
statements, and as far as I am concerned, I will do everything 
in my power that I am able to do, which is limited, to not 
certify. Not certify.
    I want to point out one thing. You have some real genuine 
folks in this Government in Belgrade. They are not all bad 
guys. You have got guys like Djindjic and Covic. I met with 
Covic for a long time at the request of General Casey at KFOR, 
sitting down with him and talking about what to do in the 
Presevo Valley. They made some significant concessions and 
progress, and talked about it.
    If you read what happened today, Covic went down there, and 
the deal was, anyone coming into that zone now, that little 
piece that the Serb military is now allowed to be in, could 
have no part of any of the atrocities that took place before. 
Who shows up in a white jeep but General Pavokvic--Covic went 
off the wall on this. He is being undercut. We need to stop 
this most radical element of the Yugoslav military.
    I have been speaking with the folks in Kosovo from Rugova 
on down through Thaci, and--I am mispronouncing this name--
Haradinaj, and so far they have been behaving well. The ethnic 
Albanian minority in Macedonia has been behaving well. Yet when 
you see these two generals come rolling down, who are like 
billboards saying, ``we are back.'' It sets everything back. So 
I just give you that as one concrete example of what is 
happening this very moment to undercut Covic.
    Now, that old general headed back up to Belgrade he had 
made his presence felt, but is anybody in the Presevo Valley 
going to believe that? Is anybody going to believe that Covic 
had really winnowed around and put together a clean military 
operation down in this small 5 meter, or 5 kilometer area? I do 
not think so. I do not think so.
    I am really sorry that we have these votes. I do not know, 
Mr. Chairman, whether there is more. Are there still five? If 
not, maybe we can come back, but otherwise I think we are 
holding these----
    Senator Smith. Senator Voinovich, do you have anything you 
want to say?
    Senator Voinovich. The only thing I would like to say is, 
first of all, I am glad I was here today, and I am going to 
send both your opening statements to President Kostunica, 
because I tried to convey to him, and so did Senator Specter 
when we were there, that we were dead serious about the 
cooperation with The Hague, that in spite of the fact that he 
claims political problems in trying to get things going there, 
that that is not going to be acceptable.
    In regard to the three areas that you both talked about, or 
the three of you talked about, I agree wholeheartedly in terms 
of The Hague. I think that in terms of the issue of Bosnia, 
from what I understand, that the cooperation there with the 
Republic of Srpska has diminished substantially in the last 
several weeks and that the President has made it very clear 
that they are not going to support those individuals, and I 
know that--what you said today verifies some testimony that was 
from the OSCE meeting that was held. I think there is more 
progress that has been made there than you think.
    In terms of the Albanians in jail, they have released a 
substantial number of them under the amnesty agreement. What it 
is suggesting to them is that some of them they say are really 
criminals, that each case be taken care of individually very 
quickly, and that try and get the Djakovica people, let them 
out of jail right off.
    So I guess what I am saying to you, Mr. Chairman, and 
ranking member, that there is a major problem with The Hague, 
and I think in the other two areas that some substantial 
progress has been made, and the only suggestion I would make is 
that before we finally make this decision, or you make this 
decision, that you bring in Ambassador Montgomery and have him 
come here so you can question him and some other people to get 
their perspective on how they praise this progress in terms of 
all three of these issues.
    Senator Biden. Mr. Chairman, one very important person is 
here that we have not introduced. Sonia Biserko a Serb who has 
been very courageous and who is a leading, leading person. I 
would just like to recognize her, and thank her for being here.
    Ms. Biserko. Thank you.
    Senator Smith. Ladies and gentlemen, thank you, and I am 
sorry. We will leave the record of this hearing open for an 
additional 3 days, and any other additional comments or 
questions, we will leave it open for colleagues.
    Senator Biden. Mr. Chairman, with their permission, I will 
send--I am not going to make a lot of work for you, but send a 
few questions so that we have them for the record, if you do 
not mind.
    Senator Smith. Thank you all. We are adjourned.
    [Whereupon, at 2:58 p.m., the subcommittee adjourned.]
                              ----------                              


             Additional Statements Submitted for the Record


  PREPARED STATEMENT OF ALBANIAN AMERICAN CIVIC LEAGUE--OSSINING, NEW 
                                  YORK

    President George Bush must certify to the U.S. Congress by March 31 
that the newly elected Serbian government of Vojislav Kostunica is 
ready to arrest and imprison former President Slobodan Milosevic, 
transfer at least one indicted war criminal to The Hague Tribunal, 
release the Albanian prisoners of war in Serbian jails, cooperate with 
the Dayton Agreement, and educate the Serbian people about the crimes 
against humanity that were committed in their name. Otherwise, $100 
million in American aid ostensibly will be cut off and the United 
States will also withdraw its support for IMF and World Bank loans to 
Serbia.
    The Albanian American Civic League urges the Bush administration 
not to back down from its original demand that Slobodan Milosevic be 
extradicted to The Hague and allow the transfer of another indicted war 
criminal in his place. The Civic League is concerned about the 
Administration's apparent willingness to certify Belgrade whether or 
not it recognizes the authority of the International War Crimes 
Tribunal and complies with the set of demands that were delivered to 
the Kostunica government by U.S. Ambassador William Montgomery last 
week. This is reminiscent of the failed policy of appeasement toward 
Serbia that enabled the country, under the Milosevic regime, to rise to 
power on a platform of anti-Albanian racism, to brutally occupy Kosova 
for ten years, and to wage four wars of conquest in Slovenia, Croatia, 
Bosnia, and Kosova that left more than 350,000 dead and more than two 
million homeless.
    If we do not want to lose the prospects for resolving the Balkan 
conflict and unifying Europe, then the Kostunica government's access to 
more American aid and to international financial institutions should be 
contingent on its demonstrating a genuine commitment to democracy and 
the rule of law by meeting the following conditions:

  <bullet> All Albanian prisoners of war must be released immediately 
        from Serbian jails and returned to Kosova. Serbia must also 
        begin the investigative work necessary to giving a full 
        accounting of the missing Kosovar Albanians. America's oft-
        lamented ``lack of leverage'' over Belgrade is at an end, and 
        so now is the time to rectify the Clinton administration's 
        mistake in dropping the provision in the war-ending agreement 
        that would have guaranteed the release of all Kosovar Albanian 
        prisoners of war. Indeed, if we certify Serbia without first 
        securing their release, we will lose the only real leverage 
        that we have ever had to free 500 or more innocent men and 
        women.

  <bullet> There can be no shelter for war criminals. The Kostunica 
        government has repeatedly denounced the International War 
        Crimes Tribunal in The Hague as ``anti-Serb'' and refused to 
        turn over Slobodan Milosevic and other indicted war criminals. 
        If the United States is serious about reinforcing the rule of 
        law, then Serbian war criminals, beginning with Slobodan 
        Milosevic and including Bosnian Serb commanders Radovan 
        Karadzic and Ratko Mladic, must be apprehended and brought to 
        The Hague for trial. America's decision in this matter will 
        reveal the level of our commitment to opposing genocide and 
        dramatically impact our ability to bring a just and lasting 
        peace to the Balkans, to prevent future conflicts, and to build 
        respect for human rights around the world. It is now widely 
        understood that the major reasons why democracy remains 
        illusive in postwar Bosnia is the West's failure to confront 
        war crimes, allowing war criminals and their accomplices to 
        maintain their political and economic power. The same is true 
        in Serbia, where Milosevic's cronies have retained their 
        control over large sectors of the economy and the military, and 
        the result has been rampant official corruption, the spread of 
        organized crime, and continuing violence against minority 
        populations.

  <bullet> Serbia must begin a ``de-Nazification'' campaign to end a 
        century of anti-Albanian and anti-Muslim racism, apart from 
        which there will be no stability in the Balkans. The Kostunica 
        regime could constructively initiate such a program by publicly 
        acknowledging Serbia's responsibility for war crimes and by 
        apologizing to the victims in Bosnia, Croatia, and Kosova. To 
        date, there has been no acknowledgment of any kind by President 
        Kostunica and his colleagues of the atrocities and mass murder 
        committed by Serbia during the Milosevic era. This failure has 
        fueled reprisal killings by Albanians and stymied efforts to 
        bring interethnic reconciliation to Kosova.

  <bullet> Serbia must honor its stated commitments in Bosnia-
        Herzegovina and help bring peace and democracy to this fragile 
        nation. The Kostunica government's continuing financial and 
        moral support for Serbian separatist leaders in Republika 
        Srpska is destabilizing Bosnia and undermining the full 
        implementation of the Dayton Accords.

  <bullet> In order to bring an end to the conflict in the Presheva 
        Valley, Serbia must cease its historic repression and violence 
        against the Albanians of Presheva, Medvegja, and Bujanoc, 
        recognize their civil and human rights, and enable them to 
        participate meaningfully in both municipal and central 
        governments, the police, and the judiciary.

  <bullet> Serbia must come to understand, and the Kostunica government 
        must accept, the new reality of Kosova and Montenegro. The new 
        reality is that both Kosovars and Montenegrins refuse to come 
        back under Serbian rule and have chosen to exercise their right 
        to self-determination, just as the other constituent units in 
        the former Yugoslavia did in the 1990s. Instead of continuing 
        to assert its authority over Kosova and Montenegro, Serbia 
        should work to develop constructive bilateral relationships 
        with its neighbors.

    Unless Serbia makes a real effort to meet these conditions, 
ultranationalist forces will prevail inside the country and regional 
stability will be threatened. And unless Serbia makes a radical change 
in the direction of compliance with the conditions for certification in 
the next two weeks, the Albanian American Civic League believes that 
the Bush administration should cut off aid to Belgrade.

                                 ______
                                 

    PREPARED STATEMENT OF FRANK KOSZORUS, JR., PRESIDENT, AMERICAN 
          HUNGARIAN FEDERATION OF METROPOLITIAN WASHINGTON, DC

    Although the Serbian and Yugoslav governments have made some 
progress in the area of human rights, they have not complied with the 
three conditions for American assistance, including in the area of 
minority rights. Nonetheless, humanitarian assistance and assistance to 
promote democracy in municipalities should be provided, especially for 
the beleaguered province of Vojvodina. In addition, a comprehensive 
policy that would promote regional security and stability should also 
be developed and implemented.

        THE 2001 FOREIGN OPERATIONS ASSISTANCE ACT (THE ``ACT'')

    Pursuant to the Act, U.S. assistance and other forms of support can 
be made available to Serbia after March 31, 2001 only if the President 
determines and certifies that Yugoslavia is (1) cooperating with the 
International War Crimes Tribunal; (2) abiding by the Dayton Accords to 
end Serbian support for separate Republika Srpska (i.e., Serb) 
institutions; and implementing policies in respect for minority rights 
and rule of law. The certification (and other) requirements of the Act 
do not apply to humanitarian assistance or assistance to promote 
democracy in municipalities. While meaningful progress is lacking as to 
all three benchmarks, this statement will focus on the deficiencies 
relating to the third benchmark, particularly with respect to the 
Hungarians of Vojvodina.

                               VOJVODINA

    Vojvodina is one of two provinces in the Republic of Serbia which 
along with Montenegro forms the Federal Republic of Yugoslavia. 
Vojvodina occupies the northern one-fifth (8,348 sq. miles) of the 
country's territory, bordering Hungary in the north, Croatia in the 
west, Bosnia-Herzegovina in the southwest, Serbia proper in the south, 
and Romania in the east. The province has 2.2 million inhabitants of 
which 57 percent are Serbs, 17 percent Hungarians, 5 percent Croats, 3 
percent Slovaks, 2 percent Montenegrins, 2 percent Romanians, 1 percent 
Ruthenians, and 13 percent others. These numbers are based on the 1991 
census and have likely changed during the Balkan wars in the 1990's.

                               BACKGROUND

    Prior to World War I Vojvodina was part of Hungary for 
approximately 1,100 years, with the exception of 200 years of Turkish 
occupation (1526-1699/1718). That occupation resulted in the 
depopulation of the area. Thereafter, the Habsburgs began to repopulate 
the area with German and Serb settlers and the Hungarians also began to 
resettle in the region. In 1910 the 1,320,000 inhabitants included 30.2 
percent Hungarians, 25 percent Serbs, 23 percent Swabian Germans, 10 
percent other South Slavs (including Croats, Bunjevci, Sokci), and 10 
percent others (Romanians, Slovaks, Ruthenians). It is unlikely that 
this region would have become part of Yugoslavia had Woodrow Wilson's 
principle of self-determination been respected. It was not and the 
Paris peace treaties awarded Vojvodina to the newly created Kingdom of 
Serbs, Croats and Slovenes (renamed Yugoslavia in 1929).
    The Serbs began an aggressive Serbianization process that, among 
other things, radically altered Vojvodina's ethnic composition in the 
20th century. As soon as Vojvodina was transferred to Yugoslavia, they 
moved tens of thousands of Serb families into Vojvodina, dispossessing 
the original residents.
    This was repeated after World War II when twenty to thirty-five 
thousand Hungarian men and boys were massacred between October and 
December 1944. An additional 40-50,000 Hungarians fled this terror. The 
massacres were done ostensibly in retaliation for the execution of 
3,300 Serbs and Communists by renegade Hungarian officers in the winter 
of 1941-42. In addition, three hundred thousand Germans were either 
expelled or exterminated and their property given to a new wave of Serb 
colonists.

                       VOJVODINA UNDER MILOSEVIC

    A third wave of ``ethnic cleansing'' took place under Milosevic: 
tens of thousands of Serb families poured in from Kosovo, Croatia, and 
Bosnia, while some hundred thousand Hungarians and Croats fled the 
forced mobilization and intimidation. The ethnic structure of Vojvodina 
has thus been significantly altered--international treaties 
notwithstanding--through forced or state-sponsored relocation, in favor 
of the Serbs, as noted in the statistics noted above.
    In 1988 Milosevic's Serbian parliament, supported by populists 
rallies financed by Serb nationalists, destroyed the province's 
autonomy when it illegitimately overturned the 1974 Yugoslav 
Constitution which guaranteed legislative, executive, and judicial 
powers to both Vojvodina and Kosovo, including equal representation 
with the six republics in the federal collective presidency. As noted 
by the March 15, 2001 RFE/RL Newsline, ``[d]estroying the two 
provinces'' autonomy was an important step in the consolidation of 
Milosevic's power.'' For Vojvodina this has resulted in total 
domination by Belgrade. For instance, beginning twelve years ago, 
Belgrade has appointed not just judges and police chiefs but factory 
managers, hospital directors, and even school principals in Vojvodina, 
thereby violating every precept of local self-government.
    Despite years of intimidation, Vojvodinians consistently and 
peacefully voted against Milosevic, demonstrating their deep commitment 
to democracy. In fact, the decimated minorities and those Serbs whose 
historical roots are in Vojvodina have not resorted to violence. They 
merely want autonomy, both territorial for the province (indeed, 
legislative, executive, and judicial) and ``personal'' autonomy (in 
education, the media, publishing, and cultural institutions) for 
members of the ethnic minorities.

        SERBIA HAS NOT SATISFIED THE THIRD BENCHMARK OF THE ACT

    Serbia has disappointingly fallen short of satisfying the third 
benchmark of the Act. Echoing Milosevic's ``unification of Serbia'' 
rhetoric, newly elected federal president Vojislav Kostunica's party 
intends to reorganize the remaining state, but keep Vojvodina under 
Serbia's control. This ab initio precludes any meaningful autonomy. 
When the new provincial assembly (with comfortable majority by the same 
18-party coalition that won the federal and the Serbian elections) 
appointed a new board for Vojvodina's five-language public TV and radio 
stations, Belgrade promptly reminded them that the decision ``belongs'' 
to the Serbian parliament. It conveniently ``overlooked'' the fact that 
the building housing the media originally belonged to Vojvodina before 
it was illegally expropriated by Milosevic in 1989.
    Even after the new Serbian republican government was sworn in, with 
ethnic Hungarian leader Jozsef Kasza as one of its Deputy Prime 
Ministers, the Serbian Constitutional Court in February ruled that the 
names of cities, towns, and villages must be displayed in Serbian only. 
This decision negated recent decisions by democratically elected 
municipal governments to erect multi-lingual signs. Ethnic political 
parties and independent intellectuals have condemned this latest 
display of majoritarian intolerance by Serb nationalists.
    Zoran Djindjic admitted in Novi Sad that the restoration of 
Vojvodina's autonomy is ``not a priority'' for the new government. RFE/
RL Newsline, March 15, 2001. The same issue reports that Dragan 
Veselinov, head of the pro-autonomy Vojvodina Coalition, responded by 
pointing out that the new government's attitude toward Vojvodina is no 
different from that of Milosevic's Socialists or Vojislav Seselj's 
Radicals. Id.
    In sum, all three conditions, including respect for minorities and 
minority rights, must be satisfied before aid is provided under the 
Act. This, unfortunately, has not occurred. At the same time it must be 
recalled that Vojvodina suffered devastating economic consequences as a 
result of NATO's intervention in 1999: all three bridges in the capital 
of Novi Sad were destroyed while none were touched in Belgrade. The 
country's only two oil refineries are located in Vojvodina and they 
were heavily damaged. Moreover, Vojvodinians, including the Hungarian 
community, have amply demonstrated their unflinching commitment to 
democracy and peace.
    Accordingly, the province should receive assistance under the two 
exclusions of the Act, namely, humanitarian assistance and assistance 
to promote democracy in municipalities. This aid should be directed to 
support NGO's, the local school system, the independent media, and 
municipal governments in Vojvodina, especially since they have received 
little support in the past compared to Belgrade-based organizations.

 ALTERNATIVE POLICIES TO FACILITATE DEMOCRACY, STABILITY AND SECURITY 
            AND TO FORESTALL AMERICAN MILITARY INTERVENTIONS

    Beyond the immediate question of assistance programs, the United 
States should adopt imaginative and forward looking policies toward the 
region instead of reacting to crises, requiring the commitment of 
American troops to drawn out military and non-military assignments. 
This would require a comprehensive approach that is not necessarily 
wedded to the status quo, but one that is designed to facilitate 
genuine democracy, stability and, therefore, regional security.
    As noted above, the United States should unequivocally support the 
restoration of Vojvodina's autonomy as well as the regional autonomy of 
the various ethnic groups of the province. It should support the 
legitimate demands of a peaceful population, and not ignore them just 
because an immediate crisis or imminent threat to peace is not looming. 
Autonomy is the sine qua non of genuine democracy, stability and 
security in the context of the Balkans; it is the desired goal.
    Thus, a reorganization of the current Yugoslav state (consisting of 
the republics of Serbia and Montenegro and the provinces of Vojvodina 
and Kosovo) must respect and adequately reflect the vastly different 
historic heritage of each of these entities. The status quo is not 
acceptable, however, and either Vojvodina must be granted rights it 
previously enjoyed as an equal federal unit of Yugoslavia or 
Vojvodinians will seek independence that will place them on equal 
footing--as Montenegro's President Milo Djukanovic suggests. 
Decentralization of Serbia would be meaningless without real federal 
status for Vojvodina.
    What if Belgrade refuses and continues to pursue intolerant and 
discriminatory policies toward ethnic minorities--policies that fuel 
disputes, tensions and violence and could threaten the peace? Graham 
Fuller, former vice chairman of the National Intelligence Council at 
the CIA, astutely observes that the ``simple reality is that in the 
next [21st] century minorities will be increasingly unwilling to live 
within borders--to which they have been arbitrarily assigned by 
history--when conditions seem intolerable. More than ever before they 
will demand a voice over what peoples will rule them and how.'' He then 
points out that if the ``states cannot provide good governance, their 
minorities'' may seek ``to gain maximum autonomy or independence.'' In 
other words, he foresees the unwillingness of minorities ``to put up 
with gross misgovernance in a world rife with talk of democratization, 
globalization, civil society, human rights, porous borders and growing 
U.N. norms. How long can we expect that minorities will indefinitely 
accept unacceptable status quos?'' The Washington Post, ``More 
Kosovos,'' April 4, 1999.
    In the context of Yugoslavia, Professors John J. Mearsheimer 
(University of Chicago) and Stephen Evara (Massachusetts Institute of 
Technology) assert that the ``history of Yugoslavia since 1991 shows 
that ethnic separation breeds peace, while failure to separate breeds 
war.'' The New York Times, ``Redraw the Map, Stop the Killing,'' April 
19, 1999). This separation does not have to result in the further 
dissolution of Yugoslavia. Rather than a centralized state, the Swiss 
model could be applied whereby each national group has its own 
autonomous self-governing unit free of domination by another, 
intolerant ethnic group. Janusz Bugajski has gone even farther by 
suggesting that the ``only viable short and long-term solution . . . is 
sovereignty, independence and statehood for the Republic of 
Vojvodina.'' ``The Republic of Vojvodina,'' reprinted in Hungarian 
American Coalition News, June 2000.
    In the final analysis, whether peace and stability will 
characterize the Balkans will depend to a large extent on Belgrade and 
the vision and leadership exercised by the West. As William G. Hyland, 
former editor of Foreign Affairs who also served in the Nixon and Ford 
administrations, suggested the United States ``should take a page from 
history and do what the European leaders did in the last century--
convene a European summit conference, as the Great Powers did in 1878 
at the Congress of Berlin; then as now the purpose would be to redraw 
the map of the Balkans and avoid an all-out war.'' The Washington Post, 
``On to a Big Table,'' March 31, 1999.


</pre></body></html>
